         Audit of the

Electronic Records Archives

          System’s

Ability to Preserve Records



OIG Audit Report No. 13-03



    February 15, 2013

Table of Contents


Executive Summary ........................................................................................ 3


Background ..................................................................................................... 4


Objectives, Scope, Methodology .................................................................... 5


Audit Results................................................................................................... 6


Appendix A – Acronyms and Abbreviations ............................................... 26


Appendix B – Management’s Response to the Report................................. 27


Appendix C – Report Distribution List ........................................................ 28

                                                                         OIG Audit Report No. 13-03


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) completed an audit of the Electronic Records Archives (ERA) System’s ability to
preserve records. NARA developed the ERA system to enable the agency to realize its
strategic vision: “ERA will authentically preserve and provide access to any kind of
electronic record, free from dependence on any specific hardware or software, enabling
NARA to carry out its mission into the future.” During this audit, we assessed NARA’s
capability to preserve electronic records to ensure the continued existence, accessibility,
and authenticity of electronic records over time. Further, we assessed future plans for
increased functionality.

OMB Circular A-109, Major Systems Acquisitions, identifies a number of major system
acquisition management objectives in ensuring each major system operates effectively in
its intended environment and demonstrates a level of performance and reliability
justifying the allocation of the Nation’s limited resources for its acquisition and
ownership. Similarly, NARA 805, Systems Development Lifecycle and its supplemental
handbook, within the scope of this audit, provide policy on requirements establishment,
and deployment and acceptance activity. The purpose of these activities is to install the
system in the operational environment and conduct acceptance testing to ensure that the
system and its associated products perform in accordance with specified technical and
contractual requirements.

Although NARA’s ERA System has completed its developmental phase, the preservation
functionalities identified in the contract and used to promote the need for this major
system acquisition were not fully achieved. This is particularly apparent in the system’s
inability to automate and scale the process of transforming electronic records into a
format independent of specific hardware or software. This condition exists due to a
number of inadequacies involving requirements management, acceptance testing, project
communication, and status representation. As a result, the ERA system is currently
unable to mitigate the risk of electronic format obsolescence 1—a major objective
identified by NARA in carrying out its mission into the future. Further, with the
decreased funding and limited resources available among competing priorities in the
Operational and Maintenance phase of the program, the likelihood of the ERA system
meeting the preservation mission needs in the foreseeable future is further challenged.

Our audit identified several improvements to be made in further ERA preservation
enhancements and efforts. We made five recommendations to more accurately identify
the ERA’s preservation functionality and to further ensure future enhancements are
reflective of NARA’s needs.




1
    NARA’s ERA Requirements Document defines this risk in terms of inaccessibility of electronic records.
                                              Page 3
                           National Archives and Records Administration
                                                                         OIG Audit Report No. 13-03


Background

According to original contract documents, the Electronic Records Archives (ERA) system was
developed to enable the National Archives and Records Administration (NARA) to realize its
strategic vision: “ERA will authentically preserve and provide access to any kind of electronic
record, free from dependence on any specific hardware or software, enabling NARA to carry out
its mission into the future.” The ERA system as a whole represents a major system acquisition at
NARA both in terms of mission criticality and financial resources. Further, it is the largest
information technology project ever undertaken by NARA.

NARA began planning for the ERA system in the late 1990’s, leading to the establishment and
funding of ERA Program Management Office (PMO) in 2000. The ERA PMO was approved and
funded under a separate line item of NARA’s annual budget request to ensure annual funding for
this mission-critical program. After five years of study and research by NARA into the
possibilities, approaches, and design requirements of the ERA system, two companies—
Lockheed Martin Corporation (LMC) and Harris Corporation—were selected to compete in
designing a technical solution to preserve NARA’s electronic information. At the time, NARA
described ERA as “a revolutionary system that [would] capture electronic information, regardless
of its format, save it permanently, and make it accessible on whatever hardware or software is
currently in use.”

In 2005, LMC was awarded the design contract to build the foundation of the ERA system that
would be developed in five increments. In announcing the contract award, the former Archivist
of the United States emphasized the importance of this mission-critical system, stating “the need
for ERA is urgent, since there is an unprecedented number of electronic records now being
created by the Government’s departments and agencies. The most important of them will be
preserved and will be accessible indefinitely. This simply must happen…ERA’s failure is not an
option.”

As development continued into 2010, the ERA system became the subject of Office of
Management and Budget (OMB) TechStat 2 Reviews. NARA took actions to address TechStat
concerns, including accelerating ERA’s development process for completion by the end of FY
2011. In June 2011, NARA’s newly appointed Chief Information Officer (CIO) cited the
TechStat Accountability Sessions as being instrumental in helping NARA assess and plan a
successful path forward for ERA. During this timeframe, the ERA team revised requirements
documentation, including those related to preservation.

NARA has described ERA as a “system of systems,” with multiple components performing
different archival functions. These include four essential functions the system must perform:
Submission, Metadata, Repository, and Access. The Repository function involves the review and
preservation of electronic records. This audit focuses on the preservation component of the
Repository function.




2
  TechStat Accountability Session (TechStat) is a face-to-face, evidence-based accountability review of an
IT investment; it enables the Federal Government to intervene to turn around, halt or terminate IT Projects
that are failing or are not producing the results for the American people.
                                            Page 4
                         National Archives and Records Administration
                                                                      OIG Audit Report No. 13-03


Objectives, Scope, Methodology

The overall objective of this audit was to evaluate and report upon NARA’s capability in
preserving electronic records to ensure the continued existence, accessibility, and
authenticity of electronic records over time. Specifically, we assessed the ERA system’s
current capability of preserving electronic records and evaluated future plans for
increased functionality.

To accomplish our objective, we interviewed key NARA and ERA personnel from the
Offices of Research Services and Information Services. We reviewed the ERA contract,
requirements, and program documentation. In addition, we gathered and reviewed
historical ERA information, meeting minutes, status updates, and presentation material.
Further, we examined NARA announcements and press releases regarding the ERA
system and its preservation functionalities. We compared the capabilities of the
production system with the latest system requirements 3, and identified plans for future
enhancements. We examined applicable Federal and NARA policy and guidance
including OMB Circular A-109, Major Systems Acquisitions; OMB Circular A-130,
Management of Federal Information Resources; Federal Acquisition Regulation Part 39,
Acquisition of Information Technology; NARA 801, Capital Planning and Investment
Control; NARA 805, Systems Development Lifecycle.

Our audit work was performed at Archives II between February 2012 and November
2012. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




3
    Electronic Records Archives Requirements Document (RD v4.1) dated 17 April 2011.
                                             Page 5
                          National Archives and Records Administration
                                                               OIG Audit Report No. 13-03


Audit Results

ERA System’s Preservation Capabilities
Although NARA’s ERA system has completed its developmental phase, the preservation
functionalities identified in the contract and used to promote the need for this major
system acquisition were not fully achieved. This is particularly apparent in the system’s
inability to automate and scale the process of transforming electronic records into a
persistent, resilient format. This condition exists due to a number of inadequacies
involving requirements management, acceptance testing, project communication, and
status representation. As a result, despite the vast amount of time and resources devoted
to this effort, the ERA system is currently unable to mitigate the risk of electronic format
obsolescence—a major objective identified by NARA in carrying out its mission into the
future. In addition, with the decreased funding and limited resources available among
competing priorities in the Operational and Maintenance phase of the program, the
likelihood of the ERA system meeting the preservation mission needs in the foreseeable
future is further challenged.

OMB Circular A-109, Major Systems Acquisitions, defines “major systems” as programs
that are critical to fulfilling an Agency mission, entail the allocation of relatively large
resources, and warrant special management attention. OMB A-109 identifies a number
of major system acquisition management objectives, which include ensuring each major
system operates effectively in its intended environment and demonstrates a level of
performance and reliability that justifies the allocation of the Nation’s limited resources
for its acquisition and ownership. In addition, OMB A-109 states each agency acquiring
major systems should provide strong checks and balances by ensuring adequate system
test and evaluation.

NARA 801, Capital Planning and Investment Control, which derives its authority, in
part, from OMB A-109, establishes NARA’s policy for Information Technology (IT)
investment management. NARA 801 stipulates investments authorized under the
directive must follow NARA 805, Systems Development Lifecycle (SDLC). Further, if
contractor assistance is used in the development of an information system, NARA 805
requires the contractor to be informed of NARA’s SDLC procedures. NARA 805 and its
supplemental handbook, within the scope of this audit, provide policy on requirements
establishment, and deployment and acceptance activity. The purpose of these activities is
to install the system in the operational environment and conduct acceptance testing to
ensure the system and its associated products perform in accordance with specified
technical and contractual requirements.


                                         Page 6
                      National Archives and Records Administration
                                                             OIG Audit Report No. 13-03


The ERA system as a whole represents a major system acquisition at NARA both in
terms of mission criticality and financial resources. In terms of criticality, the former
Director of ERA stated “ERA equals NARA…NARA as a paper archive is going to
shrink over time, and as an electronic records archive is going to grow over time.” The
ERA system is the largest information technology project ever undertaken by NARA.
Further, for the final year of ERA’s development contract, the system represented over
18% of NARA’s total requested appropriations. In total, NARA has recognized actual
expenses exceeding $380 million in the development of the ERA system. To put this into
perspective, NARA’s annual appropriation for the entire agency in FY 2012 was $391.5
million. Therefore, a program of this magnitude and criticality is clearly subject to the
developmental controls and oversight policies established at the Federal and agency
levels for major system acquisitions. A common emphasis of these controls pertains to
the establishment and definition of mission needs and system requirements.

Requirements Definition and Management

In order to gain an understanding of the early requirements related to ERA preservation,
we reviewed the original ERA contract awarded to Lockheed Martin Corporation (LMC).
The original contract was provided by ERA program office and Information Services
personnel and included NARA’s initial ERA Requirements Document. In the section
entitled “Major System Capabilities,” the initial Requirements Document states:

       “To achieve NARA’s mission and support the broad range of its responsibilities,
       the system should eliminate or minimize records’ dependence on any specific
       hardware or software. The system should maximize the types of electronic
       records and types of digital data it can handle. The system should be able to
       ingest electronic records from a wide variety of sources, including any entity in
       the Federal Government or private donors, created using any type of application
       on any computing platform. The system should be able to ingest electronic
       records currently in the holdings of NARA. The system should provide discovery
       and delivery of documentary material to anyone with interest and legal right of
       access, from now until the end of the republic. The system must accommodate
       unscheduled, permanent, and temporary electronic records regardless of record
       type, format, or physical media.”

Further, the initial Requirements Document states the system must provide capabilities
for automated archival processing of electronic records. Specific to preservation, these
automated processes must include long term storage of electronic records and
transformations of electronic records to maintain accessibility and authenticity. In


                                        Page 7
                     National Archives and Records Administration
                                                              OIG Audit Report No. 13-03


addition, within the scope of preservation, the initial Requirements Document states the
following:

   •	 ERA will authentically preserve and provide access to any kind of electronic
      record, free from dependence on any specific hardware or software, enabling
      NARA to carry out its mission into the future;
   •	 ERA will ensure that electronic records transferred to NARA remain free from
      corruption and accessible regardless of changes in information technology;
   •	 The system must provide capabilities for automated archival processing of
      electronic records themselves, including long term storage of electronic records
      and transformation of electronic records to maintain accessibility and authenticity;
      and
   •	 ERA shall provide the capability to transform electronic records/data types into a
      hardware and software independent format.

The initial Requirements Document also describes NARA’s preservation goal, which is
to preserve electronic records in persistent formats enabling access to authentic electronic
records indefinitely into the future. Based on these early requirements, it is clearly
evident that the ability to preserve records in a persistent format is a required
functionality and attribute of the ERA system. Many of these preservation requirements
have remained throughout the revisions to the ERA Requirements Document.
Furthermore, ERA Requirements Personnel indicated the Statement of Objectives (SOO)
were the primary basis by which NARA and LMC negotiated the scope of the ERA
increment requirements. In reviewing the SOO contained within the original ERA
contract package, we identified a number of performance objectives developed by
NARA. The following ERA performance objectives pertain specifically to preservation:

     Measurement
                            2007       2008       2009       2010        2011       2012
       Indicator
 Percentage of archival
 electronic holdings
 managed at the             60%        80%        85%         88%        92%        95%
 planned Preservation
 and Access Level
 Percentage of archival
 electronic records
                             5%        10%        15%         20%        25%        30%
 preserved in a
 persistent format

In a memorandum issued to the GAO on 21 May 2010, the current Archivist of the
United States stated “NARA has not made any changes to the original [ERA]

                                         Page 8
                      National Archives and Records Administration
                                                                         OIG Audit Report No. 13-03


requirements documented in the 2003 Requirements Document.” However, in the same
memorandum, the Archivist states functional priorities will be mapped to the underlying
contract requirements and the ERA Requirements Document will be updated as
appropriate. Revisions made to the initial ERA Requirements Document in 2010 and
2011 removed some of the early requirements related to preservation. However, the last
revision of the Requirements Document drafted for the ERA development contract, dated
17 April 2011, still contained many of the preservation requirement attributes identified
in the original contract package. Further, additional preservation requirements were
included in the latest Requirements Document, such as:

    •	 The system shall provide the capability to select a set of ingested data files to be
       transformed to a different format;
    •	 The system shall provide the capability to transform data files into ASCII 4 to
       ensure hardware and software independence;
    •	 The system shall store the files output from transformations to XML format 5; and
    •	 ERA will enable the creation and management of preservation plans and
       strategies in order to drive the process of transforming electronic records to
       different persistent formats while maintaining their authenticity.

NARA’s SDLC Handbook states Requirements Definition Activity focuses on
developing detailed system specifications for the end product. As such, it begins to refine
the Concept of Operations and define expected systems behavior in terms of
performance, capacity, data inputs and outputs, processing, etc. From a project
management perspective, the Requirements Definition activity will provide the inputs
necessary to begin a detailed risk assessment and continued systems development
planning. It is during this activity that the project scope should be closely examined to
determine if resource allocation and project expectations have been assessed accurately.
The Project Manager should use this information in discussions with Product Owners and
the Guidance Team to revise project and product plans as needed to ensure success.

While interviewing and discussing preservation requirements with ERA Requirements
Personnel, they acknowledged the requirements negotiation and definition process with
LMC “wasn’t that great.” In describing this process, ERA Requirements Personnel stated
NARA would start by providing LMC with a SOO which expressed the basic, top-level
objectives of the acquisition for the particular increment. Next, NARA and LMC would
negotiate the scope of the requirements for that increment based on the SOO. LMC

4
  American Standard Code for Information Interchange (ASCII) is a set of digital codes representing letters,
numerals, and other symbols, widely used as a standard format in the transfer of text between computers.
5
  Extensible Markup Language (XML) is a flexible text format for creating structured computer documents
in machine-readable form.
                                            Page 9
                         National Archives and Records Administration
                                                                       OIG Audit Report No. 13-03


would then issue a proposal, and following NARA approval, LMC would decompose 6
the requirements. However, the requirements LMC decomposed did not map to those in
NARA’s initial Requirements Document. Therefore, when an increment was complete,
NARA performed acceptance testing based upon the requirements decomposed by LMC
because NARA’s SOO was too high level and NARA’s Requirements Document did not
map to those in which LMC performed during the increment.

The ERA program office eventually decomposed NARA’s requirements in July 2010.
ERA Requirements personnel stated it was something they “should have done a long time
ago, but hadn’t.” Until then, NARA’s decomposed requirements were not mapped back
to those developed and used by LMC in executing the contract. In terms of having LMC
going back and mapping requirements for previous increments, ERA Requirements
personnel stated at that point there would have been no real benefit for the effort. Despite
developing their own decomposed set of requirements, NARA still tested against those
developed by LMC in the final increment of the development contract.

A number of prior OIG audits and evaluations identified similar issues with ERA
requirements management. Most recently, in July 2011 the OIG issued an advisory
report in part highlighting ongoing concerns related to the lack of updated system
requirements in accordance with SDLC criteria and policies 7. The GAO had previously
identified similar concerns. For example, in a June 2010 report 8 the GAO stated “NARA
has not effectively defined or managed requirements for the ERA system…Although
NARA established an initial set of high-level requirements to guide the system’s
development, these requirements are not traceable to work in later phases, or increments,
of the system.”

Preservation Framework Prototype and Demonstration

According to the ERA Business Analysis Team 9, for most of FY 2009, efforts were taken
to develop and vet—on a conceptual level—what the ERA system would do in terms of
preservation. Starting in FY 2009, during Increment 3 of the ERA contract, LMC began
designing a preservation framework prototype based upon these concepts. According to
the Increment 3 SOO, the preservation framework design was to incorporate the


6
  Requirements decomposition involves breaking down the work needed to execute the project objectives

and required deliverables. Each descending level represents and increasingly detailed definition of the

project work.

7
  OIG Advisory Report No. 11-16, Implementation Status of the Electronic Records Archives System

Requirements.

8
  GAO Report No. 10-657, Electronic Records Archive: Status Update on the National Archives and

Records Administration’s Fiscal Year 2010 Expenditure Plan.

9
  The Business Analysis Team was later dissolved into the ERA Preservation Board and Working Group.

                                            Page 10
                         National Archives and Records Administration
                                                                          OIG Audit Report No. 13-03


functionality necessary to plan, schedule, execute, monitor, and report preservation
activities in ERA.

Beginning in December 2009, demonstrations of the preservation prototype were given to
the user and stakeholder communities. During a meeting with the Advisory Committee
for Electronic Records Archives (ACERA) in April 2010, the former ERA Program
Director provided a status of the preservation efforts, indicating the prototype will
identify the formats of ingested records and provide the ability to select tools to do
preservation and preservation planning. The former ERA Program Director stated
“Everything we heard back from the users, this went very well.”

The final preservation prototype demonstration took place during the April 2010 ACERA
meeting. During this meeting, the former ERA Program Director detailed the
preservation prototype functionality as follows:

       •	 A flexible framework to enable the deployment of various software tools for the
          purpose of transforming electronic records from one format to another;
       •	 Enhanced capabilities to identify formats of ingested electronic records, and to
          persist their important archival and technical characteristics; and
       •	 Initial electronic records preservation planning.

The preservation prototype was expected to represent the framework that would be put
into the production system, allowing for the identification of the formats of ingested
electronic records and the ability to select tools to perform preservation activities in ERA.
However, during the demonstration, the ERA Business Analysis Team stated the
prototype was limited in scope, specifically, it did not:

       •	   Determine the optimal strategy for a given digital format;
       •	   Determine the optimal tool for each transformation;
       •	   Include ingest, archival catalog entries, search, or file extract services;
       •	   Include preservation planning or risk assessment; or
       •	   Allow for scalability.

In addition, the preservation prototype was limited in the format code types in which files
could be transformed. The transformation tool used within the preservation framework
prototype during the ACERA demonstration converted the Extended Binary Coded
Decimal Interchange Code (EBCDIC) 10 to American Standard Code for Information
Interchange (ASCII). The Business Analysis Team explained this tool was selected

10
     A standard eight-bit character code used in computing and data transmission.
                                               Page 11
                            National Archives and Records Administration
                                                                         OIG Audit Report No. 13-03


because it represented a number of NARA’s record holdings, and specifically, because
the tool was available for free. The Business Analysis Team stated the next step was to
get technical experts on staff to produce white papers identifying the optimal tools and
formats used in electronic records preservation. In a meeting held in April 2012, the
Team Leader of the ERA Preservation Working Group stated three such technical white
papers had been written. However, in June 2012, the Team Leader announced only one
white paper had been reviewed and approved at that point. The approved technical white
paper pertained to the EBCDIC format—the same format used in the April 2010 ACERA
preservation prototype demonstration.

Further, concerns were discussed during the ACERA preservation prototype
demonstration related to the registry application used to identify the files in need of
transformation. A member of the Business Analysis Team stated “if you don’t have the
right tools to recognize formats, if [the format] comes back as ‘unknown,’ you’re kind of
stuck.” The ERA system uses the PRONOM 11 application to perform this function.
However, early prototype testing discovered the application was unable to identify a
number of file signatures of records ingested into ERA. In the minutes of an ERA
Program Management meeting held on 13 August 2010, it was mentioned that there were
potential issues involving the sole use of PRONOM as the file format registry and the
ability to maintain file format identification if additional registries are added. These were
identified as issues NARA must address. By the time ERA system was placed into
production two years later, these issues had not been resolved.

As of April 2012, according to Preservation Programs (RX) personnel, PRONOM is
unable to identify formats of between 20 and 70 percent of the records ingested into
ERA. This further complicates efforts elsewhere in the ERA system (including the
development of technical white papers mentioned earlier). The Team Leader of the ERA
Preservation Working Group stated the preservation of electronic records begins with the
identification of an inventory of the different formats; however, the ERA system’s ability
to perform this function remains insufficient.

Additionally, during the April 2010 ACERA meeting, the Business Analysis Team stated
the preservation prototype was based upon Conceptual Framework version 1.1, however,
they stated version 2.0 was to be completed in the summer of that year. Two years later,
while interviewing the Team Leader of the ERA Preservation Working Group, he stated
the conceptual framework is still in draft and efforts are still being taken to incorporate
comments made during a peer review.


11
  A web-based technical registry to support digital preservation services, developed by the National
Archives of the United Kingdom.
                                            Page 12
                         National Archives and Records Administration
                                                                OIG Audit Report No. 13-03


Acceptance Testing

NARA’s IT Architecture Systems Development Lifecycle Handbook identifies
deployment and acceptance activity as part of the systems development phase. The
SDLC Handbook includes two types of testing activity: system testing and acceptance
testing. Of these, system testing is conducted to validate the built system against the
requirements. The purpose of the deployment and acceptance activity is to install the
system in the operational environment and conduct acceptance testing ensuring the
system and its associated products perform in accordance with specified technical and
contractual requirements. According to the SDLC Handbook, acceptance testing
involves the users and operators in understanding system usage and ensures the system is
delivered and performing as intended.

While interviewing the Director of Preservation Programs, we inquired about the results
of the preservation framework acceptance testing. She stated the Chief of Electronic
Records Preservation (RXE) and his staff “are on the front lines in terms of acceptance
testing.” The Director stated that although it fell under her office’s responsibility starting
in the June-August 2011 timeframe, she could not really speak of the acceptance testing
results. The Director stated she realizes at the end of FY 2011 there was a big push to
complete ERA development, but due to NARA’s ongoing reorganization, she did not
believe it was her responsibility at that time.

In a separate interview, the Chief of Electronic Records Preservation indicated his staff
participated in acceptance testing of the ERA preservation requirements. However, he
stated it was not “full fledged acceptance testing” as compared to past projects. In
addition, he stated the tests were all “canned” and did not reflect real world usage.
Further, although RXE will be responsible for preservation and transformation aspects of
the ERA system, the Chief of Electronic Records Preservation stated he did not sign off
on any of the acceptance testing; instead he indicated the acceptance testing was
approved by other senior ERA officials. NARA’s CIO stated he delegated acceptance
testing approval authority to the ERA Program Management Office (PMO) Test Lead.
The CIO stated the process in place at the time stipulated test approval could not be
granted if severity level 1 problems existed. The ERA PMO Test Lead reported 53 issues
identified during acceptance testing of ERA preservation functionality; none of which
reached the highest severity level (severity level 1). Even though a number of issues
were identified at lower severity levels, one of the considerations cited in the Team
Lead’s acceptance recommendation was that there was no additional time left in the
development contract for another build.



                                         Page 13
                      National Archives and Records Administration
                                                               OIG Audit Report No. 13-03


In addition, after interviewing ERA PMO personnel who conducted the preservation
requirements acceptance testing and reviewing testing documentation, we found only
limited preservation testing was performed. Further, despite SDLC Handbook
guidelines, the preservation framework was never tested in a production representative
environment. The ERA PMO Test Lead stated she performed the preservation
acceptance testing in the Customer Acceptance Test (CAT) environment. She stated a
test environment should be similar to the production environment; however the CAT
environment used was “nothing like the production system.” Further, the ERA PMO
Test Lead indicated that LMC handed off products that appeared to be incomplete.

As described earlier, LMC’s requirements decomposition was used instead of NARA’s
during acceptance testing, therefore the Test Report reviewed did not map back to
NARA’s Requirements Document. Although the Test Report indicated capabilities
generally functioned as expected, it also highlighted concerns about limitations in the
testing environment restricting the degree of testing performed. Despite an
announcement at the ACERA meeting in April 2010 that the production version of
ERA’s preservation framework would be built in Increment 4, it was not actually
delivered until the end of Increment 5—days before the conclusion of the development
contract. Therefore, due to the short timeframe remaining for acceptance testing, LMC
contract staff were limited in their availability to research and address issues identified by
NARA’s testers.

Production Environment and Current Status

According to ERA PMO personnel, at the end of the development phase, LMC had set up
a “generic” preservation framework, however, only one algorithm—which allows for the
conversion of EBCDIC to ASCII—was developed for the ERA production system. This
is despite announcements made to stakeholders in April 2010 that additional tools would
be developed in increments 4 and 5. Similarly, the Team Leader of the ERA Preservation
Working Group stated the framework provided at the end of development is “bare
bones.” When asked if the preservation framework is currently functional, the Team
Leader of the ERA Preservation Working Group stated he believes there is a good chance
it works, adding he “sure as hell hopes it works.”

The “ERA Status and Accomplishments” webpage on NARA’s public website—which
was last updated on 11 April 2012—states the electronic preservation processing
capability in ERA is not yet occurring. According to the website, “although a framework
has been developed into ERA, [NARA has] not yet converted records from one format to
another, although the basic capability to do so has been designed into the system.” The
Team Leader of the ERA Preservation Working Group reiterated this by stating the
preservation framework delivered at the end of FY 2011 and accepted by NARA had not
                                          Page 14
                      National Archives and Records Administration
                                                            OIG Audit Report No. 13-03


actually been used in production, further adding “so far it hasn’t been needed.” However,
according to NARA’s Performance Measurement and Reporting System (PMRS), during
FY 2012, RXE was responsible for transforming 100 percent of standard EBCDIC
records to ASCII records in accordance with NARA’s preservation and access plan using
the ERA system.

Despite the ERA preservation framework being accepted and placed into production at
the end of FY 2011, it was not put into use by RXE until the end of April 2012. It was at
that time RXE determined the preservation framework was non-functional. RXE
contacted the ERA help desk, which led to the discovery that all preservation servers
were inoperable. It took until June 2012 to resolve the issue enough to allow for limited
functionality. However, RXE had already concluded it would not be possible to meet the
PMRS goal of 100 percent EBCDIC conversion using ERA due to the system’s inability
to query a specific file format type from the Asset Catalog Database. As mentioned
previously, the PRONOM application used by NARA has not consistently or adequately
identified the file formats of records ingested into ERA. Further, RXE indicated the
preservation framework did not include a workflow capability to assign and review
preservation jobs. As a result of these functionality issues with the ERA preservation
framework, the Chief of Electronic Records Preservation and the RXE staff continue to
rely on legacy systems outside of ERA to perform preservation tasks. In a recent
meeting, the CIO acknowledged ERA was unable to subsume legacy systems used for
preservation. He stated that legacy preservation systems are now a required part of the
ERA workflow. The CIO stated preservation activities will continue to utilize legacy
systems for some time as opposed to replacing them with the ERA system.

In comparing NARA’s ERA contract and Requirements Document to the preservation
framework delivered and deployed by LMC on 24 September 2011, it is apparent the
capabilities provided are not as robust as those established in NARA’s requirements and
advertised to stakeholder, users, and the public. This is due in part to NARA’s
inadequate requirements tracking and management during system development as
described earlier. In addition, this negatively impacted acceptance testing, as NARA put
itself in the position where it had to perform this testing based on LMC decomposed
requirements. The delivery of the ERA preservation framework was further impaired due
to the rushed and unrepresentative acceptance testing that took place in the days before
the LMC contract ended.

In addition to those identified above, the Chief of Electronic Records Preservation and
the RXE staff voiced concerns about the production version of the preservation
framework in terms of the one conversion tool delivered at the end of the contract. As
noted previously, part of the reason the EBCDIC to ASCII conversion tool was selected
                                        Page 15
                     National Archives and Records Administration
                                                             OIG Audit Report No. 13-03


was because it was free. RXE is hesitant about relying on this tool without a thorough
understanding of its makeup. If the free tool is not reliable and sound, the Chief of
Electronic Records Preservation stated it will only create unusable outputs.

Communication/Management Concerns

Based on interviews of ERA officials and personnel, as well as analysis of ERA meeting
minutes, it became evident that communication channels involving the development of
the ERA preservation framework were not always effective. Furthermore, important
information and concerns did not consistently reach or were not fully acknowledged by
NARA senior management. This disconnect was present in efforts involving both
internal and external stakeholders.

NARA established ACERA as a deliberative body to advise the Archivist of the United
States on technical, mission, and service issues related to ERA. This includes, but is not
limited to, advising and making recommendations to the Archivist on issues related to the
development, implementation, and use of the ERA system. However, comments made by
the expert and stakeholder panels at such meetings have illustrated a level of frustration
in the lack of information shared on a timely basis and the straightforwardness of the
information provided by ERA officials. During the 7 April 2010 meeting, the former
CIO stated “we didn’t want to show you something that was giving bad results.” Further,
it was demonstrated during such meetings that user input was not always solicited.
During the meeting, one user asked “when is someone going to come and ask us about
user requirements?”

Conversely, input provided by ACERA expert and user panels were often not given
adequate consideration as evidenced by the same recommendations being brought up
meeting after meeting with no resolution. One such concept involved “technology
chasing” which, in terms of preservation, places NARA in a position of constantly
needing to retool its transformation capabilities to meet the ever growing universe of
record file formats. ACERA members suggested taking a less costly policy based
approach that would define common formats federal agencies use in creating records, and
then place the burden on the agencies to provide conversion tools with their records if
they choose to depart from the formats NARA manages.

Furthermore, an ACERA member recommended NARA give consideration to
commercial preservation vendors who might be able to provide this service at less cost to
NARA than developing evolving preservation capabilities in-house. Other
recommendations related to placing the responsibility of preservation and storage of
records on the agencies in a cloud environment. ACERA members explained that NARA

                                        Page 16
                     National Archives and Records Administration
                                                                OIG Audit Report No. 13-03


continues to take a paper archives approach by centralizing its storage of electronic
records. As a result, a member of the panel voiced concern NARA’s budget would
increasingly go toward electronic storage costs at the expense of other NARA services.
Such cloud concepts were also recommended by the Federal CIO. Following the
completion of the development contract, the CIO and ERA program office have
discussed moving some of the ERA system to the cloud.

As with the ACERA members, user input into requirements was also recently voiced as a
concern by the Chief of Electronic Records Preservation, specifically in terms of the ERA
preservation framework. During an April 2012 interview, he stated he was surprised no
consideration was given to the preservation framework workflow process. Without such
a process, there is no capability to assign transformation assignments or provide layers of
review. The Chief of Electronic Records Preservation stated as a result “accuracy and
authenticity is a big question mark.” Further, he expressed concern that even though his
team is responsible for preservation, they were not consulted or involved in the
development of the ERA preservation process. However, Business Analysis Team
meeting minutes during the FY 2010 timeframe indicate some degree of participation by
Electronic Records Preservation staff in the ERA preservation prototype design and
review efforts.

Additionally, during our meeting with the Chief of Electronic Records Preservation, he
provided a list of needs and concerns his team identified related to ERA Preservation
Transformation. The list identified issues related to the lack of a workflow process,
inability to accurately query the ERA asset catalog, inexistence of processes for
verification and running statistical reports, and inability to differentiate between certain
file formats. The Chief of Electronic Records Preservation indicated he voiced his
concerns and provided this list to the Director of Preservation Programs and other ERA
officials after it was compiled in October 2011.

During a meeting with the Preservation Programs Department’s ERA Transition Officer
(who also serves as the Team Leader of the ERA Preservation Working Group), he also
provided a list of ERA deficiencies. The list was developed by the Electronic Records
Preservation Working Group. The list included concerns related to records
characterization, compound records, contextual metadata, transformation tools,
enhancements to preservation framework, the capability to fully verify structured data,
and the incorporation of the planning portion of the ERA framework.

Despite discussing major deficiencies and concerns of the ERA preservation framework
with both the Preservation Programs Department’s Chief of Electronic Records
Preservation and ERA Transition Officer, when we later interviewed the Director of
                                         Page 17
                      National Archives and Records Administration
                                                               OIG Audit Report No. 13-03


Preservation Programs Department, she indicated she had not received a report on things
that need to be done, or the need for strengthening or enhancements. Another
Preservation Programs official at the meeting stated the transformation tool works fine,
but there are concerns with the record search capability. However, the Preservation
Programs official stated it is “really early days to evaluate that framework,” and it is more
of a “confidence” issue, indicating the RXE staff does not yet have much experience in
transforming records in ERA. Based on these interviews, it appeared as though there was
a major disconnect between the staff with knowledge of the production system and those
responsible for the management of the system. Further, when we asked about the results
of the preservation framework acceptance testing, the Director of Preservation Programs
stated she did not oversee the ERA preservation function at the time of the testing,
although she indicated the reorganization involving her office had taken place prior to the
end of the ERA’s development phase.

In addition, as mentioned earlier: ACERA members, the Federal CIO, NARA’s CIO, and
ERA PMO personnel all discussed moving elements of the ERA system to the cloud.
However, when we asked the Director of Preservation Programs if she was aware of such
efforts or considerations, she stated she had not heard anything regarding ERA and the
cloud. Further, an RX official at the meeting added “there is a lot more [we] would have
to know before considering an ERA cloud as a viable alternative.”

Promotional/Status Reporting

From the program’s early inception until present, NARA has used various methods to
communicate the capabilities, functionality, status, and progress of the ERA system.
Some of these methods included conferences, press releases, white papers, enterprise
architecture updates, web pages, and advisory committee discussions. Despite the
reduction in scope of the ERA’s preservation framework functionality, most of the
promotional documentation reviewed remained consistent with the originally defined
mission needs and requirements. Further, a number of status updates provided to
stakeholders reflecting the progress of ERA preservation efforts were often inaccurate.
Examples of the promotional and status documentation spanning the ERA development
timeframe are summarized below:

   •	 In terms of preservation, as early as 2003, during the 18th Annual Preservation
      Conference at NARA, the director of the ERA program pressed for an archival
      approach to preserving electronic records focused on the properties of records that
      must be preserved, rather than the artifacts of specific technologies used to create,
      store, or communicate them. Further, the director discussed preserving the data in


                                         Page 18
                      National Archives and Records Administration
                                                          OIG Audit Report No. 13-03


   a persistent form, which makes the records independent of any particular

   hardware or software.


•	 In a press release dated 8 September 2005 announcing the award of the ERA
   contract to LMC, NARA announced “The ERA system will capture and preserve
   the electronic records of the federal government, regardless of format, ensure
   hardware and software independence, and provide access to the American public
   and federal officials.” Further, in the press release, the former Archivist of the
   United States described the purpose of the system, stating “The Electronic
   Records Archives’ goal is clear and simple: a system that accepts, preserves, and
   makes accessible—far into the future—any type of electronic document.” The
   NARA press release continues, stating “ERA will be a comprehensive,
   systematic, and dynamic means for preserving virtually any kind of electronic
   record, free from dependence on any specific hardware or software. When
   operational, ERA will support NARA’s mission by making it easy for the public
   and government officials to discover, use, and trust the records of our
   government, and to make it easy for NARA to deliver those records in formats
   people can use.”

•	 Shortly after the press release mentioned above, NARA Notice 2005-292 was
   issued. In terms of preservation, the NARA Notice states “ERA will enable
   NARA to authentically preserve any type of electronic record created by any
   entity in the Federal Government and provide this electronic information anytime
   and anyplace to anyone with a legal right to access it.”

•	 In the February 2007 issue of the ERA publication “For the e-Record,” the ERA
   Transition Officer states “the problem is that there is a plethora of other kinds of
   electronic records that also must be preserved for the long term—independent of
   any particular hardware or software.” In the same publication, an article states
   NARA and LMC are working hard to tell the users how ERA will work and what
   impact it will have on NARA. Further, it states “be assured…we will do the best
   we can to keep everyone informed about ERA’s progress.” Lastly, the
   publication includes a chart indicating initial appraisal and preservation plans
   were developed in Increment 1, search and preservation frameworks and full
   preservation plans will be completed in Increment 2 (FY 2008), and expanded
   preservation and capacity will take place in Increment 3-5 (FY 2009-2012). As
   described previously, these dates were not met.

•	 In the November 2009 ACERA meeting, NARA ERA Preservation personnel
   indicated a prototype based on the conceptual framework for digital preservation
                                     Page 19
                  National Archives and Records Administration
                                                         OIG Audit Report No. 13-03


   was to be constructed. Further, they stated that sustainable format is so important
   that NARA has promulgated guidance regarding sustainable formats to the federal
   community. The ERA preservation personnel stated NARA contemplates
   building a staff of IT specialists with the task of working with archivists to
   identify those formats that will be most challenging, and to assess the needs of the
   research community for certain formats. This would be a collaborative process,
   determination would be recorded into a reference-driven transformation plan, and
   the ERA system would execute the transformation on specific groups of records.
   These efforts have not yet been completed.

•	 In the April 2010 ACERA meeting, the ERA Transition Officer indicated the
   ERA preservation conceptual framework would be completed by the summer of
   2010. Further, he stated technical white papers for various file formats would be
   completed in 2010. Lastly, the ERA Transition Officer stated “first we have to
   ingest everything into ERA and now we have a tool that tells us what we have.”
   However, as described previously, none of these statements were accurate.
   ERA’s preservation conceptual framework was only recently completed, the first
   technical white paper for the EBCDIC format was not approved until June 2012,
   and up until recently the tool used to identify the records ingested into ERA was
   unsuccessful in identifying file formats as high as 70% of the time.

•	 ERA’s Requirements Document version 4.0, dated 30 July 2010, was posted on
   NARA’s public webpage and remains available for view under the header “ERA
   Project Information.” This version of the Requirements Document for the most
   part contains the same preservation requirements as those contained in the
   original LMC contract, which reflect the capability to “eliminate or minimize
   records’ dependence on any specific hardware or software.” Further, there is little
   indication the scope of the preservation functionalities and capabilities has been
   reduced based on the project documentation available on the ERA’s public
   website.

•	 During the November 2011 ACERA meeting, the CIO stated the core focus is on
   effective collection and preservation of electronic records. The CIO further stated
   there is currently a framework associated with preservation but it still needs to be
   incorporated into a standard process as new file formats and preservation needs
   arise. These comments were made despite the preservation framework not
   functioning when it was put into the production environment after the end of the
   development contract in September 2011. Further, during this meeting the
   Electronics Records Lifecycle Coordinator stated the original preservation


                                    Page 20
                 National Archives and Records Administration
                                                             OIG Audit Report No. 13-03


       requirements statements became obsolete between 2009 and 2010; however, this
       was not reflected in the revised Requirements Documents.

   •	 Further, the Application Architecture component of NARA’s Enterprise
      Architecture specifies the business applications and service components of the
      agency. In the most recent version, dated 13 September 2011, the Application
      Architecture description of the ERA system states “ERA is a comprehensive and
      dynamic means for preserving virtually any kind of electronic record, free from
      dependence on specific hardware or software. ERA will make it easy for
      customers to find records and easy for NARA to deliver them.”

   •	 On 20 December 2011, the Archivist of the United States approved a charter for
      the Electronic Records Preservation Board and Electronic Records Preservation
      Working Group on Electronic Formats. The charter states “ERA has the
      capability to ingest, validate, and verify records from agencies, store them in
      secure locations, and use ‘plug-in’ tools to ‘transform’ records to new digital file
      formats when needed to avoid obsolesce or improve access.” However, this
      Charter was drafted without the knowledge of whether or not the deployed
      version of the preservation framework was even functional.

   •	 Up until recently, Archives.gov contained a webpage entitled “ERA
      Misconceptions and Facts.” One of the misconceptions listed pertained to the
      ERA system not being able to solve the problem of long-term preservation of
      electronic records as hardware and software technology changes over time. The
      webpage refuted this, stating “ERA allowed NARA to make a quantum leap
      forward in the preservation of electronic records and building a flexible and
      adaptable framework that will let NARA evolve as electronic recordkeeping
      evolves.”

NARA officials expressed the importance of ensuring information provided to the ERA
stakeholders is accurate and representative of the program. On June 28, 2012, the
Electronics Records Lifecycle Coordinator in coordination with the CIO and COO, issued
a document entitled “Lessons Learned from NARA’s Electronic Records Archives
Project.” As an introduction to the paper the Electronics Records Lifecycle Coordinator
states she and the CIO “agree that NARA’s future credibility depends on being very
honest about what the ERA experience was like so it’s clear that we understand and are
prepared to move forward.” In the Lessons Learned paper, the Electronics Records
Lifecycle Coordinator states:



                                        Page 21
                     National Archives and Records Administration
                                                            OIG Audit Report No. 13-03


       “ERA has laid the groundwork for a sustainable preservation solution for the
       National Archives, but work remains to be done in several areas. NARA is
       continuing work on preservation policies, including a risk assessment
       methodology, which will determine when staff would intervene to preserve the
       content of a record using something other than its transfer format. ERA also faces
       challenges in improving the process of format identification, a necessary
       precondition to format migration. The existing NARA collection of electronic
       records includes many records in older formats or encoding schemes that are not
       currently recognized by tools such as DROID. NARA is actively supporting the
       expansion of the set of formats included in PRONOM through sharing of the
       work of research partnerships but more work needs to be done to automate format
       identification in ERA.”

Although the Lessons Learned paper describes a number of ERA preservation
deficiencies—including those identified previously in this report—it does not provide a
clear picture of where the preservation capabilities currently stand. According to the
RXE personnel responsible for performing this activity, the preservation framework is
barely operable. Further, the issue involving the PRONOM format identification
application was identified over two years ago with little indication of any resolution.

Future ERA Preservation Efforts and Constraints

Following the conclusion of the development phase of the ERA system at the end of
FY 2011, the Archivist of the United States issued a charter establishing the Business
Requirements Group (BRG). The BRG “exists to identify and express the business
requirements of NARA business units for ERA and provide guidance to the ERA
Program Management Office on these subjects.” The BRG is responsible for providing
high-level business direction for ERA’s ongoing evolution, in part by prioritizing
potential changes from a NARA-wide perspective and reviewing and approving changes
to the business requirements, goals, and prioritization agreed on by the group.

During our interviews we inquired about the future functionality of the ERA preservation
framework. A member of the BRG from the Preservation Programs Office indicated
there is not enough money to address all the preservation priorities, “so it can be very
frustrating.” Further, the ERA Transition Officer stated he submitted proposals to the
BRG with preservation requirements. However, he explained that with the new
Operations and Maintenance contract award (and subsequent protest) no preservation
work was planned for FY 2012. He stated the executive management team had not
selected the preservation requirements as top priority. BRG members from the ERA
PMO provided a similar response, indicating of a list of over 100 BRG tasks submitted,
none of the preservation tasks has “risen to the top of the BRG list.” Preservation
                                          Page 22
                      National Archives and Records Administration
                                                             OIG Audit Report No. 13-03


capabilities and requirements will have to continue competing for limited funds in future
years against other ERA priorities.

According to the Electronic Records Preservation Board and Electronic Records
Preservation Working Group on Electronic Formats charter, future work will focus on
identifying—for each digital format—the action needed to prevent format obsolescence
which potentially makes the records difficult to use or unusable. Part of these efforts
involve preparing additional technical white papers (such as that mentioned earlier for the
EBCDIC file format). In a meeting with the Director of Preservation Programs and RX
official, the RX official stated NARA does not have to write every technical white
paper—as a lot of the documentation is being globally developed—so NARA is not alone
in these efforts. Further, she stated “although the technical white papers may sound like a
big piece of the work, technically it’s not.” Based on the charter, future preservation
efforts will also include developing preservation and access plans, identifying formats
and records characteristics in NARA’s stewardship universe, identifying emerging
formats, and conducting an ongoing technology review.

The “Lessons Learned” paper issued by the ERA Electronic Records Lifecycle
Coordinator also mentions these efforts, stating NARA is continuing work on
preservation policies, including a risk assessment methodology, which will determine
when staff would intervene to preserve the content of a record using something other than
its transfer format. The paper also indicates NARA is actively supporting the expansion
of the current set of formats included in PRONOM through sharing of the work of
research partnerships, but more work needs to be done to automate format identification
in ERA. Further, the ERA Electronic Records Lifecycle Coordinator states NARA
anticipates someday it will request funding to begin a new development phase to create
ERA 2.0. The Coordinator states since ERA’s purpose is to preserve electronic records
permanently, the current ERA system was designed to evolve. It will need to take
advantage of better hardware and software as it becomes available so it can continuously
improve to better meet the changing needs of federal agencies, researchers, and NARA
staff.

In a recent meeting, the CIO emphasized NARA’s early vision “to develop a
revolutionary system that [would] capture electronic information, regardless of its format,
save it permanently, and make it accessible on whatever hardware or software currently
in use” did not represent the actual ERA system development requirements, but instead
outlines what needs to be considered for future needs. He stated digital preservation is
still immature and requires further invention and innovation. The CIO stated digital
preservation research has not yet resulted in the tools needed to reach NARA’s
preservation vision, which may still be decades away. Further, he stated it may be more
                                        Page 23
                     National Archives and Records Administration
                                                               OIG Audit Report No. 13-03


cost effective to continue using legacy systems and manual processes to perform
preservation activities. The CIO stated there has been a lot of effort within the Federal
Government related to digital preservation, but NARA’s efforts are just part of the
journey and it needs to be recognized that we are still in the early stages of solving a very
critical problem.

Other future concerns the ERA system must contend with relate to the need for a
Technology Refresh for the continued successful operation of the ERA system. The
Information Systems Business Needs Summary sponsored by the CIO indicates the
hardware and software comprising the ERA system is over five years old—the majority
of which has either surpassed the manufacturers’ End of Life (EOL) date or will do so
within the next 12 months. According to the summary, as the system components
approach and surpass EOL dates, their reliability greatly decreases and poses increased
risks of unreliability, data loss, or unavailability of the ERA system. Based on its
research and industry best practices, the ERA Program Management Office has
determined all ERA system hardware, software and components shall be planned to be
refreshed during a repeating four year cycle. The summary indicates this refresh will
provide the system with newer, more reliable hardware and software incorporating
improvements in efficiency and security.

Conclusion

The ERA system is the largest information technology project ever undertaken by
NARA. However, the development of ERA’s Preservation Framework was not
conducted in accordance with Federal and Agency system development and acquisition
policy. This is particularly apparent in the ERA system’s inability to automate and scale
the process of transforming electronic records into a persistent, resilient format. The
initial contract for the ERA system states “the purpose of the ERA system is to enable
NARA to realize its strategic vision: ‘ERA will authentically preserve and provide access
to any kind of electronic record, free from dependence on any specific hardware or
software, enabling NARA to carry out its mission into the future.’” After over six years
of development and an evolving system purpose, the preservation framework delivered is
barely functional and the scope of its capabilities has been greatly reduced.

Throughout its development, NARA announcements and status updates have described
the ERA preservation achievements in terms of “a quantum leap forward.” However,
after the end of the development phase, NARA’s ERA status and accomplishments
website simply states “the electronic preservation processing capability in ERA is not yet
occurring.” This lack of functionality is a direct result of numerous inadequacies
identified during this audit involving requirements management, acceptance testing,
project communication, and status representation. Now in the operations and
                                          Page 24
                       National Archives and Records Administration
                                                          OIG Audit Report No. 13-03


maintenance phase, without efforts to correct these issues, NARA’s ERA system
preservation needs will remain unrealized.

Recommendations

We recommend NARA’s Chief Information Officer:

   1.	 Ensure the ERA Program Manager follows NARA 805 SDLC Handbook and
       System Development Guidelines for any enhancements or modifications to ERA,
       including the Requirements Definition Activity and Requirements Review
       Process.
   2.	 Establish a test environment for ERA that is representative of the production
       environment and use this test environment to ensure future enhancements or
       modifications to the system perform in accordance with specified technical and
       contractual requirements.
   3.	 Implement a process for documenting, analyzing, and tracking suggestions and
       recommendations made by ERA stakeholders and ACERA.
   4.	 Conduct and document a thorough assessment of the production version of the
       ERA system’s preservation framework capabilities.
   5.	 Establish a quality control process for reporting ERA preservation status to
       internal and external stakeholders and the public.

Management Response

Management concurred with the recommendations.




                                       Page 25
                    National Archives and Records Administration
                                                    OIG Audit Report No. 13-03


Appendix A – Acronyms and Abbreviations

ACERA    Advisory Committee for Electronic Records Archives
ASCII    American Standard Code for Information Exchange
BRG      Business Requirements Group
CAT      Customer Acceptance Testing
CIO      Chief Information Officer
COO      Chief Operating Officer
DROID    Digital Record Object Identification
EBCDIC   Extended Binary Coded Decimal Interchange Code
EOL      End of Life
ERA      Electronic Records Archives
GAO      Government Accountability Office
IT       Information Technology
LMC      Lockheed Martin Corporation
NARA     National Archives and Records Administration
OIG      Office of Inspector General
OMB      Office of Management and Budget
PMO      Program Management Office
PMRS     Performance Measurement and Reporting System
SDLC     Systems Development Lifecycle
SOO      Statement of Objectives
XML      Extensible Markup Language




                                  Page 26
               National Archives and Records Administration
                                                                             OIG Audit Report No. 13-03 



Appendix B - Management’s Response to the Report 





      L
      NATIONAL
      ARCHIVES


         Date:              FEB 11 2013
         To:             James Springs, Acting Inspector General

         From:           David S. Ferriero, Archivist of the United States

         Subject:        Comments on revised draft of OIG Draft Audit Report 13-03, "Audit of the
                         Electronic Records Archives System's Ability to Preserve Records"



         We thank you for your revised draft report entitled, "Audit of the Electronic Records
         Archives System's Ability to Preserve Records." I n particular, we appreciate your efforts
         to work with the Information Services office to obtain feedback and make several
         changes to the report in preparation of the final draft.

         We concur with the recommendations in the report.



      ~t~
         DAVID S. FERRIERO
         Archivist of the United States




       NAT IONA l ARCH I VES and
       RECOR DS ADMIN IST RATION

          8601 A DElHI I ROAD
       COLLEGE PARK. MD 207<0·6001
            www. archives.gov




                                       Page 27 

                    National Archives and Records Administration
                                                           OIG Audit Report No. 13-03


Appendix C - Report Distribution List

David S. Ferriero, Archivist of the United States (N)

Jay Bosanko, Chief Operating Officer (C)

Michael Wash, Executive for Information Services and Chief Information Officer (I)

Mary Drak, Performance and Accountability Staff (CP)





                                       Page 28
                    National Archives and Records Administration
